NATIONAL
TELECOMMUNICATIONS
AND INFORMATION
ADMINISTRATION
Excess Equipment,
Weaknesses in Inventory,
Management, and Other
Issues in BTOP
Infrastructure Projects

FINAL REPORT NO. OIG-14-023-A
JUNE 25, 2014



U.S. Department of Commerce
Office of Inspector General
Office of Audit and Evaluation




FOR PUBLIC RELEASE
                                                             UNITED STATES DEPARTMENT OF COMMERCE
                                                             Office of Inspector General
                                                             Washington , D.C. 20230



I   June 25, 2014

    MEMORANDUM FOR: 	 Lawrence E. Strickling
                      Assistant Secretary for Communications and Information
                      National Telecommunications and Information Administration

                                                              f ,c;;
    FROM: 	                      Ann C. Eilers       ~      (,,   pJ~
                                 Principal Assista    spector General for Audit and Evaluation

    SUBJECT: 	                    Excess Equipment, Weaknesses in Inventory Management, and Other
                                  Issues in BTOP Infrastructure Projects
                                  Final Report No. OIG-14-023-A

    Attached is our final report on our audit of NTIA's Broadband Technology Opportunities
    Program (BTOP) equipment acquisitions. Our objectives were to determine whether (I) NTIA
    has the personnel and processes in place to effectively monitor recipient's equipment
    acquisitions, including security, inventory controls, and report submittals, (2) recipients have
    appropriately acquired, tested, and implemented the most effective equipment, and (3)
    recipients are on track to complete their projects on schedule and achieve project goals.
    We found, for the sample of infrastructure recipients reviewed, that they appropriately
    acquired, tested, and implemented equipment. However, our audit identified problems with
    excess equipment, inventory management, and that the design of the middle-mile network for
    one recipient does not follow industry best practice for providing reliable service. The
    problems identify the need for NTIA to strengthen their oversight. Finally, three of the six
    recipients reviewed may not be able to sustain network service beyond the grant period.
    We summarized your response in the report and made comments and revisions to the report
    where we believe it was appropriate. Also, the formal response is included as appendix B. The
    final report will be posted on the OIG's website pursuant to section SM of the Inspector
    General Act of 1978, as amended.
    In accordance with Departmental Administrative Order 213-5, please submit to us within 60
    calendar days of the date of this memorandum an action plan that responds to the
    recommendations in this report.
    We appreciate the assistance and courtesies extended to us by NTIA during our audit. If you
    have any questions about this report, please contact me at (202) 482-4328 or Chris Rose,
    Senior Associate, Recovery Act Task Force, at (202) 482-5558.

    cc:    Doug Kinkoph, Associate Administrator (Acting), Office of Telecommunications
            and Information Applications, NTIA 

           Aimee Meacham, Director, Program Services, BTOP 

           Kathy Smith, Chief Counsel, NTIA 

           Milton Brown, Audit Liaison, NTIA 

                                            Report In Brief                                         JUNE 25, 2014



Background                            NATIONAL TELECOMMUNICATIONS AND INFORMATION
The American Recovery and Re-         ADMINISTRATION
investment Act of 2009 provided
the National Telecommunications       Excess Equipment, Weaknesses in Inventory Management, and
and Information Administration
(NTIA) approximately $4.7 billion
                                      Other Issues in BTOP Infrastructure Projects
to establish the Broadband Tech-      OIG-14-023-A
nology Opportunities Program
(BTOP). BTOP is a competitive         WHAT WE FOUND
grant program that provides funds     Our audit identified the following weaknesses:
for deploying broadband infra-
                                      • 	Site visits identified problems with excess equipment and inventory management. Visits to
structure, enhancing broadband
capacity at public computing cen-        six grant recipients found excess equipment (even though the project was complete
ters, improving access to broad-         and being closed out), deficient inventory management controls, and a lack of written
band services for public safety          agreements addressing the federal interest in the equipment.
agencies, and promoting sustaina-     • 	Technical oversight of BTOP grant recipients needs to be strengthened. As projects are
ble broadband adoption.                  completed and closed out, sufficient steps must be taken by both NTIA and the grant
                                         recipients to ensure that the terms and conditions of the grants are properly
Of the $4.7 billion, NTIA issued
                                         satisfied.
232 BTOP grant awards repre-
senting approximately $3.9 billion.   • 	The design of the middle-mile network for one recipient does not follow industry best
The bulk of BTOP dollars, totaling       practice for providing reliable service. The modified network design for this project is
$3.5 billion, went toward 123 in-        not as resilient as the network design in the grant application that received the
frastructure grants.                     award (and thus has greater potential exposure to extended outages).
                                      • 	Three of the six recipients we reviewed may not be able to sustain network service beyond
Why We Did This Review                   the grant period. These projects, in which approximately $154 million in federal grant
Office of Inspector General              dollars have been invested, were incurring monthly losses because their expenses
(OIG) oversight identified BTOP          exceeded revenues.
equipment as a concern that           • 	Many of the projects were not completed on time, requiring that they receive extensions.
needed further review.                   Of those 69 recipients that requested and received extensions to complete their
                                         projects, 15 awards remained active within their extension period as of March 7,
In OIG’s February 2013 testimony
on broadband stimulus before the
                                         2014. Also, four of the six grant recipients we visited requested an extension of time
House Subcommittee on Com-               to complete their projects.
munications and Technology, the
Principal Assistant Inspector Gen-    WHAT WE RECOMMEND
eral for Audit and Evaluation         We recommend that the Assistant Secretary for Communications and Information
identified challenges that OIG        direct NTIA personnel to perform the following oversight activities on all BTOP
believed NTIA faced in imple-         grants:
menting BTOP. These included:         1.	 NTIA should ensure that grant recipients have devised effective inventory internal
(1) some BTOP projects were at            controls.
risk of not being completed by        2.	 NTIA program officers should review their awards and, where appropriate, ensure
September 2013, (2) additional            that BTOP grant recipients obtain agreements with all CAIs to secure federal
monitoring of equipment may be            interests in all BTOP equipment.
needed, and (3) there was a con-
                                      3.	 NTIA program officers should work with grant recipients to assess equipment
tinued need for effective over-
                                          acquisitions to ensure that (1) the justification on the use and benefit of the
sight of BTOP awards. Also,
OIG’s January 2013 response to a
                                          equipment is adequate and (2) the purchases are allowable.
Congressional request regarding       4. NTIA should work with recipients to identify and employ best practices in network
an award to the state of West             design and risk mitigation strategies for networks in which reliability is a concern.
Virginia had identified that equip-   5.	 NTIA should reassess its staff’s ability to provide technical expertise in order to
ment was an area that needed              ensure that awards with complex issues are receiving appropriate oversight.
close attention.
   U.S. DEPARTMENT OF COMMERCE                                                                                          OFFICE OF INSPECTOR GENERAL

Contents

Introduction .......................................................................................................................................................1

Findings and Recommendations ....................................................................................................................3

   I. Site Visits Identified Problems with Excess Equipment, Inventory Management, and 

   Network Design. ..........................................................................................................................................3

         A.     Excess Equipment ............................................................................................................................4

         B.     Inventory Management ...................................................................................................................5

         C. Network Design ..............................................................................................................................7

   II.        Technical Oversight of BTOP Grant Recipients Needs to Be Strengthened.........................7

   Recommendations........................................................................................................................................8

   Other Matters ...............................................................................................................................................9

         A.     Sustainability of Projects Is in Question .....................................................................................9

         B.     EAGLE-Net .................................................................................................................................... 10

Summary of Agency Response and OIG Comments............................................................................. 11

Appendix A: Objectives, Scope, and Methodology................................................................................ 12

Appendix B: Potential Monetary Benefits ................................................................................................ 14

Appendix C: Agency Response................................................................................................................... 15





                                                                                                                       COVER: Detail of fisheries pediment,
                                                                                                              U.S. Department of Commerce headquarters,
                                                                                                                      by sculptor James Earle Fraser, 1934
U.S. DEPARTMENT OF COMMERCE                                            OFFICE OF INSPECTOR GENERAL


Introduction

The American Recovery and Reinvestment Act of 2009 provided the National
Telecommunications and Information Administration (NTIA) approximately $4.7 billion to
establish the Broadband Technology Opportunities Program (BTOP). BTOP is a competitive
grant program that provides funds for deploying broadband infrastructure, enhance broadband
capacity at public computing centers, improve access to broadband services for public safety
agencies, and promote sustainable broadband adoption. Of the $4.7 billion, NTIA issued 232
BTOP grant awards representing approximately $3.9 billion. BTOP awards were made in three
major areas:

    	 Program infrastructure (comprehensive community infrastructure, or CCI), to provide
       institutions such as schools, libraries, and medical facilities with Internet connectivity;

    	 Public computing centers, to establish new public computer facilities or upgrade existing
       ones to provide broadband access to the general public or specific populations such as
       low-income individuals, the unemployed, seniors, children, minorities, and people with
       disabilities; and

    	 Sustainable broadband adoption, to promote broadband Internet usage and adoption,
       including among specific populations traditionally underserved by this technology.
The bulk of BTOP dollars, totaling $3.5 billion of the approximately $3.9 billion in awards, went
toward 123 infrastructure grants. As of September 2013, there were 116 active CCI awards,
totaling approximately $3.3 billion (5 were terminated by grantees and 2 were terminated by
NTIA). Table1 summarizes the active CCI awards with regard to the amounts awarded and
withdrawn as of September 2013.
                  Table 1. Active BTOP CCI Grants as of September 2013
                        Number of Grants   Amount of Award     Amount Drawn        Percent Drawn

 Initial grants                  123       $ 3,469,978,021     $ 2,722,837,970          78%

 Terminated grants                7         $150,745,590         10,470,592             7%

 Active grants                   116       $ 3,319,232,431      $2,712,367,378          82%

Source: OIG based on NTIA data

A significant portion of federal funds used to implement these projects (an average of 45
percent for the six grants we included in this review) has been spent on purchasing network
equipment. Equipment includes fiber, base tower stations, switches, microwave radio
equipment, etc. As such, proper internal controls must be in place to guard against fraud, waste,
or abuse associated with these assets purchased using BTOP funds.

OIG oversight identified BTOP equipment as a concern that needed further review. In our
February 2013 testimony on broadband stimulus before the House Committee on Energy and


FINAL REPORT NO. OIG-14-023-A                                                                        1
    U.S. DEPARTMENT OF COMMERCE                                                    OFFICE OF INSPECTOR GENERAL
Commerce, Subcommittee on Communications and Technology,1 the Principal Assistant
Inspector General For Audit and Evaluation identified challenges that the OIG believed NTIA
faced in implementing BTOP. The identified challenges included: (1) some BTOP projects were
at risk of not being completed by September 2013, (2) additional monitoring of equipment may
be needed, and (3) there was a continued need for effective oversight of BTOP awards. Also,
our January 2013 response to a Congressional request regarding an award to the state of West
Virginia had identified that equipment was an area that needed close attention.

The objectives of this audit were to determine whether:
     1.	 NTIA has the personnel and processes in place to effectively monitor recipients’
         equipment acquisitions; including security, inventory control, and report submittals,
     2.	 Recipients have appropriately acquired, tested, and implemented the most effective
         equipment, and
     3.	 Recipients are on track to complete their projects on schedule and achieve project
         goals.
To ensure that NTIA processes were in place and effective, we first obtained an understanding
of NTIA’s oversight of equipment acquisition and implementation and then considered risk in
the selection of six BTOP CCI recipients to review. The focus of our review was to determine
how effective the oversight of equipment acquisition and implementation was for the selected
BTOP recipients (see Appendix A for a detailed summary of our audit objectives, scope, and
methodology). During the course of the review, we provided NTIA management with interim
results of our site visits to allow them to expediently work with the grant recipient to address
any issues noted. We reviewed subsequent information provided by NTIA in response to our
interim results and have considered this information in preparing our report.




1
 Testimony of Ann C. Eilers, Principal Assistant Inspector General For Audit and Evaluation, U.S. Department of
Commerce before the House Energy and Commerce Committee, Subcommittee on Communications and
Technology, “Is the Broadband Stimulus Working,” February 27, 2013.

2                                                                                   FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                          OFFICE OF INSPECTOR GENERAL


Findings and Recommendations

As part of its oversight of the BTOP awards, NTIA has assigned personnel and established processes
to monitor recipients’ implementation of awards, including the acquisition and implementation of
equipment (security, inventory control, and report submittals). NTIA holds conference calls with
awardees (at least monthly, and weekly for awards needing additional oversight) and uses site visits
performed by NTIA staff (supported by BTOP contractor personnel), to closely monitor
implementation of the awards by grant recipients. During the site visits, NTIA observes facilities and
equipment procured with federal funds. Following each site visit, NTIA documents its findings in a
summary report and, when it believes it is warranted, provides technical assistance or issues a
corrective action plan. The problems we discuss in the following paragraph demonstrate the need to
further strengthen oversight.

Overall, we found that for the sample of infrastructure recipients reviewed, they appropriatetly
acquired, tested, and implemented equipment. However, our audit identified certain weaknesses and
recommends steps to improve NTIA’s oversight controls. Specifically, we identified findings related
to excess equipment and inventory management. We also noted that the design of the middle-mile
network for one recipient does not follow industry best practice for providing reliable service.

Finally, many of the projects were not completed on time, requiring that they receive
extensions. Of those 69 recipients that requested and received extensions to complete their
projects, 15 awards remain active within their extension period as of March 7, 2014. While the
projects we visited will result in expanded broadband infrastructure, four of the six grant
recipients requested an extension of time to complete their projects. Also, three of the six
recipients we reviewed may not be able to sustain network service beyond the grant period.

I. Site Visits Identified Problems with Excess Equipment,	 Inventory Management,
   and Network Design.
As part of our oversight of the acquisition and implementation of equipment funded by BTOP,
we conducted site visits of six recipients of CCI grant awards. During these site visits, we met
with recipient managers to discuss project details, inventory controls, and procurement
practices. We visited data centers, warehouses, points of presence (POP),2 and community
anchor institutions (CAIs) to verify that equipment existed and was inventoried, labeled, and
functional. Also, we performed procedures to determine whether CAIs had improved
broadband services and that the telecommunications technology implemented was appropriate.
While performing these site visits, we found specific issues concerning excess equipment,
deficient inventory management controls, lack of CAI agreements and a flawed network design.
These issues are summarized in table 2 and discussed in detail in sections A through D.




2
 An Internet point of presence is an access point to the Internet. It is a physical location that houses servers,
routers, ATM (asynchronous transfer mode) switches, and digital/analog call aggregators.

FINAL REPORT NO. OIG-14-023-A                                                                                       3
    U.S. DEPARTMENT OF COMMERCE                                                      OFFICE OF INSPECTOR GENERAL
                       Table 2. Issues Identified During OIG Site Visits to

                              Six Recipients of CCI Grant Awards


                                                    Inventory
                     Excess         Physical       Management/            CAI            Network
    Recipient      Equipment       Inventory         Tracking          Agreements         Design

       1                               X

       2              X

       3                               X                 X                  X               X

       4                                                 X

       5                                                 X

       6              X

Source: OIG data


A. Excess Equipment

Federal regulations place certain requirements on grantees regarding excess equipment. We
observed that one of the six recipients (Recipient 2) we visited had excess equipment valued at
$3.6 million. We observed during our site visit in March 2013 that although the project is
complete and being closed out, the recipient’s records indicated that its inventory contained
$3.6 million of excess equipment—including patch panels, fiber, and intelligent Multiservice
Gateway (iMG) fixed-form factors—in anticipation of potentially servicing additional CAIs and
residential end-users. NTIA management stated on May 7, 2013, that recipients should not have
a warehouse full of inventory after the award is closed out. In addition, it was unclear during
our site visit if this equipment will be fully deployed and used for this project or, if not used, will
receive proper disposition. We continue to believe full deployment of equipment for this
project remains a concern.
For this recipient, according to federal regulations,3 equipment that (a) was procured with grant
funds, (b) is no longer needed by the grant recipient, and (c) has a current per-unit fair market
value of less than $5,000 may be retained, sold, or otherwise disposed of with no further
obligation to NTIA. For equipment with a current per-unit fair market value of $5,000 or more,
the recipient may retain the equipment for other uses provided that it pays compensation—
computed by applying the percentage of federal participation in the cost of the original project
or program to the current fair market value of the equipment—to NTIA or the government. If
the recipient has no need for the equipment, it must request disposition instructions from the
grants officer.4 As such, the grants officer can either request that the grant recipient ship the

3
  15 C.F.R. § 14.34(g).
4
  In addition, these instructions must be issued no later than 120 calendar days after the recipient’s request. If
instructed to do so, or if no instructions are issued within 120 days, the recipient must sell the equipment and
reimburse the Department of Commerce an amount calculated by applying to the sales proceeds the percentage
of federal participation in the cost of the original project or program. Furthermore, if the grant recipient is

4                                                                                      FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                       OFFICE OF INSPECTOR GENERAL

equipment to an entity that has a use for it or request that the equipment be sold and the
government reimbursed for its share.
Also, during our site visits, we concluded that one of the six recipients had incurred costs
totaling roughly $157,000 to purchase a router for a data center that is no longer needed.
According to the recipient, after re-engineering and re-designing its network to account for
changes in demand, one data center was deemed unnecessary. Therefore, we believe that the
router is no longer necessary to the project and should already have been disposed of. As
discussed with NTIA, it has agreed to work with Recipient 6 to sell the item and return the
proceeds to the award. While this is a positive step, this action should have been taken sooner.
B. Inventory Management

Federal regulations require that a physical inventory of equipment must be taken and the results
reconciled with the equipment records at least once every two years.5 A physical inventory
count is a critical part of inventory internal controls and, without completion, recipients cannot
ensure adequate accountability for BTOP equipment, thereby increasing the risk of theft, loss,
or mismanagement of equipment purchased with federal grant funds.
Federal regulations state that property records must be maintained to include a description of
the property/equipment, a serial number or other identification number, the source of the
property/equipment, the location and condition of the property/equipment, and any ultimate
disposition data.6 Federal regulations also state a control system must be developed to ensure
adequate safeguards to prevent loss, damage, or theft of the property.7 In addition, according to
the Broadband Technology Opportunities Program Federal Interest Requirements Fact Sheet, during
the useful life of the property, NTIA retains an undivided equitable reversionary interest in the
BTOP property.8 Any loss, damage, or theft of equipment must be investigated.
During our site visits, we noted that four of the six recipients needed to strengthen their
internal controls by improving their inventory management. Table 3 summarizes the inventory
deficiencies we identified.




instructed to ship the equipment to another location, the recipient will be reimbursed commensurate with the 

percent amount of its participation in the cost of the original program. Otherwise, the recipient will be reimbursed

by the Department for the cost of equipment disposal. 15 C.F.R. § 14.34(g)(1)–(3).

5
  15 C.F.R. §§ 14.34(f)(3), 24.32(d)(2).

6
  15 C.F.R. §§ 14.34(f)(1), 24.32(d)(1). 

7
  15 C.F.R. §§ 14.34(f)(4), 24.32(d)(3). 

8
  National Telecommunications and Information Administration, July 1, 2011. Fact Sheet: Broadband Technology 

Opportunities Program Federal Interest Documentation Requirements. Washington, DC: NTIA, 1.


FINAL REPORT NO. OIG-14-023-A                                                                                      5
    U.S. DEPARTMENT OF COMMERCE                                           OFFICE OF INSPECTOR GENERAL
                      Table 3. Summary of Inventory Management Deficiencies

                           Found at Four Recipients of CCI Grant Awards

                                  Required Physical      Percent of
                                     Inventory         Inventory with     CAI Agreements
                     Recipient      Performed?          Deficienciesa    Properly Managed?

                Recipient 1             No                   0%                 Yes

                Recipient 3             No                  47%                 No

                Recipient 4             Yes                  2%                 Yes

                Recipient 5             Yes                 48%                 Yes

            a
             Tested by OIG

            Source: OIG data


       	 During our site visit, Recipient 1, which had an equipment budget of approximately $15
          million, did not provide evidence of a physical inventory. Subsequently, this grant
          recipient indicated that it uses Solarwinds Network Configuration Manager and other
          software tools to administer a real-time inventory management system that can detect
          devices if they go offline and are no longer in operation. However, there was no
          indication that this software was ever reconciled with the recipient’s internal inventory
          tracking system.

       	 At the site visit for Recipient 3, which had an equipment budget of approximately $20
          million, we noted that the inventory records do not effectively track the equipment
          purchased to complete the BTOP project. During our visit, we completed inventory
          testing at six of the project’s sites, including two CAIs, three POPs, and the grantee’s
          warehouse. For inventory items reviewed, we could not find 22 of 47 (or 47 percent) of
          the inventory items at the location that was noted in the grantee’s inventory tracking
          system. Consequently, we do not believe that Recipient 3 has adequate controls in place
          to safeguard equipment purchased with BTOP funds, nor that adequate property
          records were maintained in accordance with federal regulations.9 In addition, Recipient 3
          did not provide us with documentation that a physical inventory had been performed.

       	 The site visit of Recipient 4, which had an equipment budget of approximately
          $90million, revealed that a deficiency existed in the tracking of accountable property.
          We found a deficiency in 1 of 45 (or 2 percent) of items tested: one of the items listed
          on management-provided inventory lists could not be verified at the site.

       	 At the site visit to Recipient 5, which had an equipment budget of approximately $5
          million, we observed specific deficiencies in the inventory records provided by
          management for 16 of 33 (or 48 percent) of items tested: (a) 15 of 23 equipment items
          selected as warehouse inventory could not be verified and (b) 1 of the 10 pieces of
          equipment recorded as being located at two tower sites could not be found where

9
    15 C.F.R. § 24.32(d)(1).

6                                                                          FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                     OFFICE OF INSPECTOR GENERAL

           indicated. In addition, 5 equipment items at two tower/POP sites were not included on
           the official equipment list.
Also, we found that one of the six recipients we visited did not properly manage BTOP
equipment agreements with their respective CAIs. Two of the three CAI agreements of
Recipient 3 we reviewed did not include language addressing the federal interest in the
equipment. Consequently, the CAIs may not understand the restrictions placed upon their
authority to dispose of the equipment.

C. Network Design

During each of our site visits, we assessed the adequacy of the network designs. We found that
the current design of the middle-mile network for one of the six recipients (Recipient 3), does
not follow the industry best practice of fiber ring design. Therefore, parts of the network are
exposed to potential extended outages. The original design contained in the grant application
called for a ring format for fiber routes, which would allow continuous service through an
alternate route should a cable breakage occur. A unidirectional or bidirectional ring fiber
network design is commonly used in self-healing fiber network deployments. Such a ring
structure allows for fast and automatic service restoration in case of cable breakage.
Due to funding limitations, the current design of the network for this recipient will instead have
an open-ended loop, which does not provide alternative paths in case of cable breakage. This
could lead to extended periods of outages if a fiber link goes down.

II. Technical Oversight of BTOP Grant Recipients Needs to Be Strengthened
The problems detailed in the previous section of this report—relating to excess equipment,
inventory management, and an inadequate network design—make plain the importance of
exercising strong technical oversight over BTOP grantees. As these projects are completed and
the awards are closed out, it is important that sufficient steps be taken by both NTIA and the
grant recipients to ensure that the terms and conditions of the grants are properly satisfied.
The BTOP Recipient Handbook clearly identifies the NTIA program office’s responsibilities for
assisting recipients. For example, the Handbook states that “the program office responsibilities
focus on assisting recipients with programmatic, scientific, or technical aspects of each project.”
In addition, it states that federal representatives are assigned to support and provide guidance
to grant recipients10 as they try to meet program objectives while complying with grant rules
and regulations.




10
     National Telecommunications and Information Administration, February 2012. BTOP Recipient Handbook.

FINAL REPORT NO. OIG-14-023-A                                                                              7
    U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL



Recommendations

We recommend that the Assistant Secretary for Communications and Information direct NTIA
personnel to perform the following oversight activities on all BTOP grants:
1.	 NTIA should ensure that grant recipients have devised effective inventory internal controls. Such an
    internal control system should provide effective monitoring and accountability of the
    recipient's equipment inventory records. This system must ensure that the location of all
    BTOP equipment is correctly tracked in an inventory tracking system and a physical
    inventory is performed at least once every two years.
2.	 NTIA program officers should review their awards and, where appropriate, ensure that BTOP grant
     recipients obtain agreements with all CAIs to secure federal interests in all BTOP equipment. For
     those recipients that already have agreements in place, we recommend that they include
     language that protects the federal interest in all BTOP equipment against loss, damage, or
     theft.
3.	 NTIA program officers should work with grant recipients to assess equipment acquisitions to ensure
    that (1) the justification on the use and benefit of the equipment is adequate and (2) the purchases
    are allowable. NTIA should obtain from recipients an explanation and documentation
    supporting the appropriateness of the equipment and documentation to demonstrate that
    the decision to purchase the equipment was reasonable and complied with Notice of Funds
    Availability (NOFA) requirements. If NTIA determines that the equipment exceeds
    requirements or is no longer necessary, NTIA should refer to federal regulations and
    determine whether the recipient (a) has no further obligation to the awarding agency, (b) is
    able to use the equipment for other uses requiring compensation to NTIA, or (c) should
    contact the program officer for disposal instructions. If NTIA determines that the costs are
    not allowable, these costs should be removed from the recipient’s BTOP budget and
    associated funds returned to the government.
4.	 NTIA should work with recipients to identify and employ best practices in network design and risk
    mitigation strategies for networks in which reliability is a concern.
5.	 NTIA should reassess its staff’s ability to provide technical expertise in order to ensure that awards
    with complex issues are receiving appropriate oversight. As the BTOP program is technical in
    nature, NTIA should have knowledgeable staff available to appropriately respond to
    grantees’ technical questions.




8                                                                               FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                             OFFICE OF INSPECTOR GENERAL

Other Matters

A.	 Sustainability of Projects Is in Question

NOFA Round 2, section V, part F, “Use of Program Income,” states that projects funded by
BTOP grants are expected to convincingly demonstrate the ability to be sustained beyond the
funding period. This criterion suggests that BTOP was established to produce sustainable
projects. Accordingly, we feel it is important to report that there are concerns with the
sustainability of three of the six projects we visited, in which approximately $154 million in
federal grant dollars have been invested.
We noted that three of the six recipients we reviewed may not be able to sustain network
service beyond the grant period. The recipients were incurring monthly losses because their
expenses exceeded revenues. Table 4 summarizes the net loss per month for these three
recipients.
         Table 4. Summary of Net Losses Reported by Three Grant Recipients

                                                            Average Net Loss
      Recipient           Revenue               Expenses       per Month            Comment

    Recipient 3       $1,100,000         ($3,500,000)      ($200,000)          Revenue and
                                                                               expense for the
                                                                               period July 2012–
                                                                               June 2013

    Recipient 5          $12,000           ($150,000)      ($138,000)          May 2013 estimate
                                                                               per recipient

    Recipient 6                 $0         ($988,000)      ($494,000)          Per recipients’
                                                                               general ledger, May
                                                                               and June 2013

   Source: OIG data

    	 We noted with Recipient 3 that the completed project will not provide the same results
       that were included in the grant application. This recipient also had cash flow problems:
       for the period July 2012 through June 2013 the recipient had a deficit of about $2.4
       million. The recipient reached an agreement with a network operator which would
       invest more capital to expand the broadband network being developed by the recipient.
       However, the sustainability will be determined by the recipient’s ability to secure
       customers for its services.

    	 Recipient 5 has a cash flow problem. Its expenses were approximately $150,000 per
       month, while revenue from customers was only $12,000 per month, for a net loss of
       about $138,000 per month. This recipient explained that the project may be losing
       potential clients because the grant was suspended for a short time and a group of public
       detractors of the award may be undermining the network’s success. In conversations on

FINAL REPORT NO. OIG-14-023-A                                                                        9
     U.S. DEPARTMENT OF COMMERCE                                               OFFICE OF INSPECTOR GENERAL
         this issue, the recipient noted that in order to sustain the network beyond the grant
         period they must secure a business partner to invest cash in the project and provide
         last-mile service to potential CAIs. Their managers informed us that negotiations with
         business partners were in progress. In the fall of 2013, a formal request for approval of
         the chosen strategic partner was submitted to NTIA by Recipient 5. The request was
         approved by the Grants Officer later in the fall.

      	 We noted that Recipient 6 also has a potential sustainability issue. The recipient was not
         receiving any outside revenue, only grant funds. A review of the general ledger showed
         that expenses for May and June 2013 totaled $577,000 and $411,000 respectively. This
         recipient’s management informed us that while negotiations with some Internet service
         providers are in progress, no agreements had been reached as of August 1, 2013. We
         therefore have no reasonable assurance that sufficient financing can be secured to
         sustain the project beyond the grant period. To resolve the sustainability issue, the
         recipient is currently seeking a business partner to provide a cash infusion and take over
         network operations.

B.	 EAGLE-Net

On May 9, 2013, we received a letter from members of the United States Congress. The letter
stated that Congress was pleased to learn that OIG was planning to audit EAGLE-Net Alliance
of Colorado, which had received a $100.6 million BTOP grant in September 2010. The letter
noted that the grant to EAGLE-Net has been criticized for overbuilding existing infrastructure
rather than delivering service to unserved communities. In addition to the issues we planned to
examine in the audit, we were asked by Congress to investigate other areas and to provide
written answers to specific questions. The responses to those questions are reported in a
separate OIG memorandum.11




11
  OIG, “Letter to Chairman Walden, Representative Gardner, and Representative Tipton re: Review of NTIA’s
Broadband Technology Opportunities Program Grant to EAGLE-Net Alliance of Colorado,” January 23, 2014.

10                                                                              FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                         OFFICE OF INSPECTOR GENERAL


Summary of Agency Response and
OIG Comments
In responding to our draft report, NTIA acknowledged OIG’s findings and recommendations
and described the actions they are taking to address them. We believe these actions are
consistent with the intent of recommendations. Also, NTIA provided additional details relating
to its oversight of grant recipients and noted where it took issue with the OIG findings within
the report. In the following paragraphs, we comment on certain issues NTIA raised within the
response. We have made revisions to the report where appropriate.
In its response, NTIA challenged our use of the term “excess equipment,” stating that the
recipient has assured NTIA that it will continue to build out its network and will use the
majority of the “excess equipment” to serve additional homes in an expanded service area.
However, during the audit we were provided with an inventory listing showing over $3.6
million in inventory, even though the project was complete and being closed out. NTIA
management stated that, while BTOP usage may fluctuate, recipients should not have a
substantial quantity of inventory after the award is closed out. The high value of equipment
remaining at the end of the award and the recipient’s acknowledgment that it will use not all
(but the majority of) the equipment leads us to continue to be concerned about excess
equipment. Also, in the draft report we noted that a $157,000 router (with a different
recipient) was no longer needed and was determined to be a questioned cost. After reviewing
the NTIA response we concur that the router is not a questioned cost, but is an example of
excess equipment which would be categorized as “funds put to better use.” This router was
identified as being no longer needed by the grant recipient about a year ago but it has yet to be
disposed of. Therefore, we believe that action should have been taken sooner to dispose of this
unnecessary equipment.
NTIA believed that the use of Network Operations Center (NOC) database employed by a
number of recipients to check for the representation of deployed equipment and continued
presence of the equipment is an appropriate approach to performing an inventory. NTIA’s
response was silent about grantees that did not use this approach. Nevertheless, we believe this
approach is not a substitute method for a physical inventory that is required to be done every
two years, as it does not indicate the presence of sub-components nor address equipment not
in use.
NTIA stated that the network design issue we cited in our report made the most effective use
of recipient resources. However, we continue to believe that the ring design approach called
for in the original grant application—which was the approach funded by the award, but
subsequently modified by the grantee—is more resilient and therefore less likely to encounter
extended outages.




FINAL REPORT NO. OIG-14-023-A                                                                   11
     U.S. DEPARTMENT OF COMMERCE                                              OFFICE OF INSPECTOR GENERAL

Appendix A: Objectives, Scope, and
Methodology
The objectives of this audit were to determine whether (1) NTIA has the personnel and
processes in place to effectively monitor recipients’ equipment acquisitions including security,
inventory controls, and report submittals; (2) recipients have appropriately acquired, tested,
and implemented the most effective equipment; and (3) recipients are on track to complete
their projects on schedule and achieve project goals. Fieldwork was completed between
February and August 2013.

To meet our objectives, we reviewed BTOP compliance with laws, regulations, policies, and
procedures including:

      	 The American Recovery and Reinvestment Act of 2009,

      	 The July 9, 2009, and January 22, 2010, Notice of Funds Availability for the Broadband
         Initiative Program and BTOP,

      	 Department of Commerce financial assistance terms and conditions and BTOP special
         terms and conditions for property,

      	 BTOP Recipient Handbook, February 2012,

      	 BTOP’s Effective Grant Monitoring: Site Visits, February 2012, and

      	 BTOP’s Federal Interest Documentation Requirements Fact Sheet, July 2011.
To gain an understanding of internal controls and assess how NTIA monitors the grantees’
equipment acquisitions throughout the grant period, we interviewed pertinent staff including
NTIA compliance officials, BTOP federal program officers, and grantee financial and program
personnel. During these interviews, we discussed the scope of the projects, network design,
current project schedule and status, project sustainability, and any other project-related issues.
Additionally, we performed site visits of six recipients, based upon our risk ranking of their
respective projects, the proximity of their site locations to OIG offices in Washington DC,
Atlanta, and Denver, and a Congressional request. During these site visits we:

      	 Obtained and reviewed procurement procedures, network design diagrams, and

         equipment periodic test results;


      	 Compared recipients’ equipment/inventory lists to equipment housed at various
         warehouse, POP, and CAI locations;

      	 Compared the amount included in the equipment budget line item with equipment
         expenses posted in the recipients’ general ledgers, including reviewing expenses included
         in the general ledger for unreasonable or unallowable expenses;



12                                                                             FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                        OFFICE OF INSPECTOR GENERAL

    	 Examined equipment at various sites and performed speed tests at Network Operation
       Centers (NOCs) to assess the performance of the equipment; and

    	 Obtained a sample of testing and utilization reports to determine if ongoing system
       performance testing is completed and how much the network is being utilized.
To assess the reliability of computer-processed data obtained from the various recipients, we
directly tested and compared it with the actual physical inventory of equipment. We
determined that the computer-processed data regarding inventory lists was not always
accurate. In the findings and recommendations section, we identify deficiencies in inventory
records.
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable
basis for our findings and conclusions based on our audit objectives. We conducted our review
from January 2012 through August 2013 under the authority of the Inspector General Act of
1978, as amended, and Department Organization Order 10-13. We performed our work at the
Department of Commerce headquarters; NTIA offices in Washington, DC; and various
recipient sites in Florida, Colorado, Washington, DC, and Georgia.




FINAL REPORT NO. OIG-14-023-A                                                                   13
     U.S. DEPARTMENT OF COMMERCE                      OFFICE OF INSPECTOR GENERAL

Appendix B: Potential Monetary Benefits


                                   Questioned Costs   Funds Put to Better Use


Excess equipment—router                  $0                  $157,000




14                                                     FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE     OFFICE OF INSPECTOR GENERAL


Appendix C: Agency Response





FINAL REPORT NO. OIG-14-023-A                           15
     U.S. DEPARTMENT OF COMMERCE                                                                           OFFICE OF INSPECTOR GENERAL





            Sections A through D, below, outline NTIA' s response to the specific findings the OIG raises in
            its draft report.

                A. Undeployed Equipment

            The Draft Report raises concerns about one recipient's undeployed equipment holdings at the
            end of the award period. However, the Draft Report does not define "excess equipment," and the
            Department's rules do not even reference such a term. 2 NTIA does not consider this equipment
            to be excess in light of the recipient' s demonstrated need for the equipment.

            During the audit review period, NTIA worked directly with this recipient to better understand the
            reasons why it acquired the equipment at issue. Due to the decreased worldwide supply of fiber
            as a result of the tsunami in March 2011, NTIA encouraged recipients to accelerate their fiber
            purchases to avoid supply issues later in the award period. As a result, the recipient decided to
            purchase all required equipment and fiber earlier in the project's schedule than originally
            planned. In this case, the recipient purchased enough equipment and fiber to potentially connect
            8,000 residential customers and approximately 300 Community Anchor Institutions (CAls).

            The recipient later identified an opportunity to enter into an indefeasible right-of-use (IRU)
            agreement with another provider in lieu of performing new construction for the western ring of
            its middle-mile network. With the IRU, the recipient was able to lower its deployment costs and
            avoid potential overlap in that section of its build. Because of that IRU, certain fiber and
            equipment the recipient purchased upfront was no longer needed for the original construction.
            However, the recipient later identified additional homes that it could serve if it were to expand its
            last mile service area. NTIA approved the recipient's supplemental environmental assessment
            associated with this project change in March 2012. The recipient repurposed its equipment and
            fiber for this new build and also bought some additional lateral fiber. However, because the
            recipient's project ended in November 2012, the recipient had only approximately seven months
            of active construction to deploy its equipment and was unable to complete the build before the
            end of the award period.

            The recipient has assured NTIA that it will continue to build out its network using its own
            resources and will utilize the majority of what the OIG calls "excess" equipment to serve
            customers in these areas, further fulfilling the purposes of the BTOP program. The recipient also
            provided an inventory trend report to NTIA indicating that the Intelligent Multiservice Gateways
            (iMGs) in stock have continued to decrease by approximately 57 units per month as it services
            additional homes, and fiber in stock has decreased by approximately 85,986 feet per month since
            December 2012.

            http://www2.ntia.doc.gov/ManagementResources: past training and webinar presentations are available at
            http://www2.ntia.doc.gov/Workshops.
            2
             But see, 15 C.F.R.§ 14.2, which contains the closest corollary, "excess property," but that section only references
            Department of Commerce owned or controlled equipment, not equipment titled in the recipient or subrecipient's
            name.

                                                                      2




16                                                                                                           FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                                      OFFICE OF INSPECTOR GENERAL





            As a result of these facts, NTIA believes that the recipient reasonably acquired the equipment
            and continues to deploy it. The equipment is still very much needed for the project for which it
            was acquired. It would be premature and in fact contrary to Department regulations to require
            the recipient to dispose of this equipment. The Department's Unifonn Administrative
            Requirements (UARs) state that "[t]he recipient shall use the equipment in the project or
            program for which it was acquired as long as needed, whether or not the project or program
            continues to be supported by Federal funds . . .''3 If the recipient no longer needs such
            equipment, then the rules in 15 C.F.R. § 14.34(g) apply. In this case, the recipient continues to
            need the equipment to support its project. Although the recipient has yet to fully deploy the
            customer premises equipment (CPE) and fiber, it has identified potential customers to connect to
            its network and remaining fiber may be used for repair purposes. Additionally, NTIA's review
            of the recipient' s remaining inventory identified that the majority ofremaining last mile assets
            (batteries, iMGs, and 24-port 100/1 OOOOBX F1Tx iMAP Service Modules) has a per-unit fair
            market value of under $5,000. Under 15 C.F.R. § l 4.34(g), the recipient has no further
            obligation to NTIA for this equipment and may retain, sell, or otherwise dispose of it. The OIG
            recognizes this in its Draft Report.

            Finally, NTIA considers it appropriate for BTOP recipients to retain a reasonable quantity of
            spare equipment and supplies that can be used to repair the network or replace components that
            fail or become damaged. The OMB cost principles applicable to all BTOP awards require that
            costs be reasonable, necessary, and allocable.4 Retention of a reasonable quantity of spare
            equipment and supplies is reasonable in light of best practices in the telecommunications
            industry, according to the extensive telecommunications industry experience ofNTIA's federal
            staff. It would take significant time for a network operator to order and obtain new components
            only as the need for repair arises. Thus, a reasonable quantity of undeployed equipment and
            supplies are necessary to ensure reliability, which, for example, is essential for public safety and
            data centers, and important to all users. Without quick repairs, users could suffer from prolonged
            network outages, and the recipients' networks will likely lose customers as they fail to deliver
            the benefits promised under their BTOP awards. Allowing recipients a starting inventory of
            undeployed equipment and supplies will help them transition into the operational phase of their
            projects and ensure the sustainability of their networks. Finally, the undeployed equipment and
            supplies are allocable to the award, because they are to be used within the scope of the project, to
            deliver the benefits of the award-funded networks. Thus, the equipment at issue meets the OMB
            cost eligibility requirements.




           3
               15 C.F.R. § 14.34(c).
           4
            See Office of Management and Budget, Circular A-87, App. A, para C; Circular A-122, App. A, para A; Circular
           A-21, App A, para C; 48 C.F.R. Subpart 31.2.


                                                                 3




FINAL REPORT NO. OIG-14-023-A                                                                                              17
     U.S. DEPARTMENT OF COMMERCE                                                                           OFFICE OF INSPECTOR GENERAL





                B. Questioned Costs

            The Draft Report questioned costs totaling roughly $157,000 for the cost of a router that was
            previously targeted for deployment in a network data center. NTlA has reviewed the facts
            leading OIG to question this cost, and as a result of this review, NTIA believes the router is an
            eligible cost under the BTOP award.

            Because the recipient purchased the router in accordance with the previously approved network
            design for its project, NTIA believes that at the time the router was purchased, it was an
            allowable direct cost of the award. 5 The recipient purchased the router to meet the needs of its
            originally planned network, which called for three routers to be deployed in three data centers in
            support of its network build. After re-engineering and re-designing its network to account for a
            lost partnership opportunity and changes in anticipated demand, the recipient needed to remove
            this router from its re-designed network. NTIA notes that OMB Circular A-122, Appendix A,
            judges the reasonableness of a cost according to "the circumstances prevailing at the time the
            decision was made to incur the costs" rather than in hindsight (emphasis added).

                C. Inventory Management

            The Draft Report also raises concerns with several recipients' inventory management practices.
            Throughout the award period, NTIA worked with all recipients to ensure that they were fully
            aware of the requirements. The Uniform Administrative Requirements (UARs), which are
            incorporated into BTOP awards, outline the inventory management requirements and define
            equipment as personal tangible proferty with an acquisition cost of greater than $5,000 and a
            useful life of greater than one year. Not only are the requirements incorporated into the BTOP
            awards' tenns and conditions, but NTIA has consistently reinforced the message that recipients
            should establish sound property management practices. NTIA communicated this message
            through recipient workshops and various monitoring activities, such as initial desk reviews, site
            visits, ongoing recipient calls, and numerous guidance documents.

            During the interim response period associated with this audit, NTIA confirmed that a number of
            recipients rely on their Network Operations Center (NOC) databases to provide a comprehensive
            representation of deployed equipment and to check for the continued presence of the equipment.
            Given the nature ofteleconununications networks, and the inability to remove and physically


            'See Cost Principles for Non-Profit Organizations, OMB Circular No. A-122, App. A, iJ A.3. These cost principles
            define equipment as nonexpendable tangible personal property with a useful life of greater than one year and an
            acquisition cost greater than $5,000. Id, App. B., 1f 15. The cost principles further defme capital expenditures for
            special purpose equipment, which includes equipment used for technical activities, as direct allowable costs. Id
            The router in question certainly meets the general equipment definition, and, as it was acquired in accordance with a
            previously approved project plan and to serve a technical activity, it qualifies as special purpose equipment
            appropriately charged as a direct cost.

            'See 15 C.F.R. §§ 14.2, 24.3.


                                                                      4




18                                                                                                           FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                                OFFICE OF INSPECTOR GENERAL





            inspect key network assets without seriously damaging network operations, NTIA believes that a
            NOC database provides an adequate inventory tracking system for these pieces of equipment and
            does so in real-time.

            Following the Draft Report, NTIA specifically reached out to Recipient 1 and confirmed that not
            only is the organization in the process of completing an inventory, but its property management
            practices also require reconciliation between its NOC database and its physical inventory of
            BTOP equipment. NTIA fully appreciates that the OIG did not have the opportunity to consider
            this additional information during the audit. Combined with a physical inventory of equipment
            not accounted for by the NOC database, NTIA believes that a recipient managing a portion of the
            inventory (i.e., deployed network equipment) through a NOC is an appropriate practice.

            Additionally, in preparing interim responses to this audit, NTIA worked with one of the
            recipients identified in this report to account for all items the OIG said it was unable to locate,
            including those that did not meet the UAR definition of"equipment." 7 NTIA provided this
            infonnation to the OIG prior to the completion of the current Draft Report and OIG revised its
            response accordingly.

            The OIG also raises a concern that several recipients do not have property management
            agreements with all of their CAis or partners at Point of Presence (POP) locations. However, as
            we have discussed with OIG staff, such agreements are not necessary because recipients retain
            title to any equipment deployed at CAis or POP locations and are ultimately responsible for
            compensating the federal government should the equipment be damaged or fall into disrepair.
            More specifically, the federal interest is not compromised by the absence of language reinforcing
            this requirement in a CAI agreement because the requirement is formally implemented through
            the Department's rules, which are incorporated into all BTOP Broadband Infrastructure awards.
            Given the safeguards provided to the federal government by recipients' underlying grant
            obligations, NTIA believes that its interest in the BTOP-funded equipment remains secure.
            However, NTIA advised recipients that modifications of the CAI agreements, in accordance with
            the OIG' s recommendation, would further protect recipients' and the federal government's
            interests, serving as a best practice for fulfilling recipient responsibilities outlined in the UARs.

                   D. Network Design

            The Draft Report raises concerns regarding the design of one of the BTOP networks. However,
            NTIA believes that the network, as approved, makes the most effective use of recipient
            resources, while taking into consideration existing broadband resources and potential network
            overlap concerns. NTIA considered these factors in approving the current network design, as do
            commercial operators when they implement similar network designs.



            1
                See I 5 C .F .R. §§ 14.34(f)(3), 24.32.


                                                              5




FINAL REPORT NO. OIG-14-023-A                                                                                       19
     U.S. DEPARTMENT OF COMMERCE                                                                           OFFICE OF INSPECTOR GENERAL





            The OIG raises concerns about extended outage periods. However, in a typical buried fiber
            network, customers may have temporary outages of around two hours and a permanent repair
            takes an average of eight hours. 8 Fiber optic cable reliability is directly related to the frequency
            of cable breaks and failures in a teleconununications system. 9 Further, in trunk-design networks,
            ifa segment of the network is down, it does not mean that all of the network will cease to
            operate. Instead, the network will continue to operate properly between the network endpoint
            and the endpoint where the network disturbance begins. The majority of the network will
            continue to function while the impacted portion of the network is repaired.

            NTIA believes that the network in question has already showed its resiliency, which NTIA
            would expect to see in any undeployed portions of the network, as well. The network design
            aptly demonstrated its reliability during extensive flooding that occurred throughout the state
            where it is located earlier this year. This flood ing resulted from storms that inflicted the heaviest
            total rainfall recorded in the state and reports have described the weather disaster as a " 100-year"
            or even "1,000-year" event. However, the extremely heavy rains and flooding damaged network
            facilities in just three locations. Despite the damage, only one customer temporarily lost service.
            The recipient and its partner were able to reroute traffic and establish an alternate path that
            restored that customer's service within eight hours, despite the affected facilities remaining
            underwater for a number of days. These results suggest that the existing network design satisfies
            the technical feasibility considerations of the grant and the OIG's concerns about reliability are
            unwarranted.

            Technical Oversight ofBTOP Grant Recipients

            NTIA actively engages in providing technical assistance to recipients. To this end, NTIA has
            had a dedicated Technical Assistance team throughout the active award period and has
            contracted with network deployment experts to provide even greater expertise when needed. To
            some degree, the Draft Report recognizes this, as it references the technical oversight referenced
            in the BTOP Recipient Handbook. Further, the Draft Report expressly states that NTIA will
            provide teclmical assistance after site visits, and while that is definitely the case, NTIA's ability
            to provide technical assistance is ongoing and not directly tied to a site visit-it is an option
            available whenever it is necessary. In addition to some of the activities already outlined above,
            NTIA has also worked extensively with recipients to address specific deployment issues. NTIA

            8
              See RELIABILITY OF FIBER OPTIC CABLE SYSTEMS: BURIED FIBER OPTIC CABLE, OPTICALGROUNDWIRE CABLE,
            ALL DIELECTRIC, SELF SUPPORTING CABLE, Alcoa Fujikura Ltd. (May 2001 ), available at http://www.southern­
            te!ecom.com/solutjonsfAFkReliability.pdf. (Alcoa Fujikura Ltd., an aerial fiber cable manufacturer, conducted a
            study on cable breaks between 1986 and 1998).
            9
              Fiber cables and installations must undergo standards certification to ensure a minimum level of reliability. See,
            e.g., ANSlfffA/EIA-758, CUSTOMER·OWNED OUTSIDE PLANT TELECOMMUNICATIONS CABLING STANDARD,
            Telecommunications Industry Association, available at http://tiaonline.org/standards/; ANSUSCTE 86 2010, SCTE
            RECOMMENDED OPTICAL FIBER CABLE TYPES FOR OUTSIDE PLANT TRUNK AND DISTRIBlITION APPLICATIONS,
            Society of Cable Telecommunications Engineers (2010), available at
            http://www.scte.oo?/documentsfpdf/standardslANSI SCTE%208Wo2020) 0.pdf.


                                                                      6




20                                                                                                           FINAL REPORT NO. OIG-14-023-A
U.S. DEPARTMENT OF COMMERCE                                                                 OFFICE OF INSPECTOR GENERAL





            has always been willing to support recipients throughout the process by providing technical
            assistance staff or moving resources in order to best help its recipients deploy their networks.

            NTIA Response to tlle Draft Report's Recomme11datio11s

                 1. Ensure grant recipients have devised effective inventory internal controls.

            NTIA will continue to monitor BTOP recipients' compliance with their inventory management
            requirements. To this end, NTIA will continue to inform recipients of their ongoing post­
            closeout requirements regarding property management and will continue to review recipient­
            specific audit reports, which offer independent appraisals ofBTOP projects.

                2. NTIA program officers should review their awards and, where appropriate, ensure that
                   BTOP grant recipients obtain agreements with all CA ls and POPs to secure federal
                   interests in all BTOP equipment.

            NTIA will continue to recommend these agreements with recipients as a best practice
            notwithstanding our conclusion that the federal interest is effectively protected through the title­
            holder of the equipment, which, absent specific Program Office and Grants Office approval, is
            always a recipient or subrecipient of the award. Further, NTIA requires all Broadband
            Infrastructure recipients to properly record and file notice of the federal interest in any BTOP­
            funded property, further placing third parties on notice as to the ex istence of the federal interest.

                3. NTIA program officers should work with grant recipients to assess equipment
                    acquisitions to ensure that(/) the justification on the use and benefit ofthe equipment is
                    adequate and (2) the purchases are allowable.

            At this point in the BTOP program, NTIA does not foresee many more equipment purchases,
            given the low number of active BTOP projects. However, if this issue arises, program staff will
            work with recipients and NTIA will consider this recommendation for future grant programs, as
            necessary and appropriate.

                4. NT/A should work with recipients to identify and employ best practices in network
                   design and risk management strategies for networks in which reliability is a concern.

           NTIA considered network reliability issues and risk management strategies throughout the
           program. Further, NTIA approved original network designs and subsequent modifications after
           careful review, weighing a variety of deployment concerns. Although NTIA is currently not in a
           position to reevaluate network designs because the majority of the broadband infrastructure
           awards are approaching completion or closed, NTIA will continue to work with recipients that
           have open awards to provide continued technical assistance and best practice advice on issues
           such as network design and risk management strategies.



                                                              7




FINAL REPORT NO. OIG-14-023-A                                                                                        21
     U.S. DEPARTMENT OF COMMERCE                                                              OFFICE OF INSPECTOR GENERAL





                  5. NT/A should reassess its staff's ability to provide technical expertise in order to ensure
                     that awards with complex issues are receiving appropriate oversight.

            NTIA believes that its staff's technical expertise regarding broadband deployment is unmatched
            within the federal government. NTJA has provided the right resources to assist recipients with
            technical, financial, or other project issues and ensure appropriate oversight. As such, NTIA will
            continue to provide robust technical assistance to ensure that they fulfill the purposes of their
            award. To accomplish this goal, NTIA will reassess staff allocations, as necessary, to provide
            such technical assistance and appropriate oversight.

            Long-term Sustainability ofProjects

            Finally, the Draft Report raises concerns with long-term project sustainability. NTIA is already
            working very closely with all recipients to address any sustainability concerns and ensure that
            they continue to operate long after the BTOP program comes to an end. To that end, NTIA has
            worked diligently to respond to recipient concerns, encourage partnerships with different
            providers, and create a regime that allows recipients to enter into symbiotic IRU agreements
            while protecting the federal government's interest. However, this is all done in recognition of
            the fact that the BTOP program is a one-time funding opportunity that will come to an end.
            NTIA's capabilities in this regard are limited by this reality.

            If you have any questions or concerns regarding this response to the draft report, please contact
            Milton Brown, NTIA' s Liaison to the OIG, at (202) 482-1853.


                                                                   Sincerely,


                                                               ~~
                                                                Stri~kling D
                                                                   Lawrence E.


            cc:     Ann C. Eilers, Office of Inspector General, U.S. Department of Commerce
                    Chris Rose, Senior Auditor, Recovery Act Task Force, OIG
                    Milton Brown, NTIA Audit Liaison
                    Douglas Kinkoph, NTIA
                    Aimee Meacham, NTIA




                                                              8




22                                                                     29BTOP000156            FINAL REPORT NO. OIG-14-023-A
